fri:V-No.

if?;

r_ri

' '/

<^r

O 41
J. Osx;

^r 7r

I1'

1 \'-i

Supreme- Oouri, U.S.
filed

M 2 5 23211
OFFICE OF THFCLFRK

IN THE
SUPREME COURT OF THE UNITED STATES

MHchdlV/mm

fro SE

— PETITIONER

(Your Name)
vs.

ARCHIE d. Scarborough dai.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Uh'Hb) SidEt Court of APPfais FiFih Crnoiit F-mm jlfmaM.
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MiffJsll WMMJi
(Your Name)

13.01!

PH 3S<&

(Address)

ABHenb

Texas

(City, State, Zip Code)

• .vs- m- %3s
(Phone Number)

7

7%ohooco

[

QUESTION(S) PRESENTED

IS if A Violation of The Petii Loner's Cons fI futioNA L
Rims To Counsel WhEN APPelleTe Court FaILs To
Recognize an Already Approved and accepted in Forma PauPeriS'
CTate The

issue

:

The iiii&AtioN Legal Work is To Complex For Me, Appellant need's
APPoInTMent of Counsel Tb LiLIGaTe This CASE ASa/nsT ATTORNEY GENERAl.
The TPPeLLees Have Lois oF ATTomes. Tm TusT A Prisoner Wiih M
LAW SCHOOL EDUCATION*

S

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

STANLE y T B/> UtwiN:

7ambs FinLeY ;

Kbrfh F MeeKs ;

Richard Burgess ;

CLAYTtH M/HEEDEH; lEXAS KAIROS ORGANIZATION.

RELATED CASES

MiklmlL Wagner x/.Campuzano. no. fj&rcy^os, us. DisTmTCourt norther district
ABsLeNe Division JUDGMENT ElJered FeB~ Dots

Mihhtll Wagner v. T.b.C.J, no. iMs-cv-nz us. DisiticTns Texas AbHem
DivisioN Judgment entered Janss-JZom
MUieIL Wagner

V TD.CJ

No. M-11076, US. Court of^APfcALs FiFfh CiRCuJt
New (Orleans. Louisiana. judgment entered DET/ISom

9

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX k-Jub&MEtff-Motion APPT-CouNSEL MD IFF PEN/eD BY U.S.C./HDEO //, 3loAO
F/rsT SlR/KE Against Me. j/fMATE TRUST Fund fiomize yEfdFimm
APPENDIX B- U-S-D-l- US-C’A/ MoTm,RtQ, TPANsCRiPT, TFP> GRANTED BY Court U-S.D.C.

APPENDIX C - U.S.DX. - ORDER RE: Motion To PtotEtb IFF OH APPEAL t GRMiTtD
ORDER m Motion Co Ms idere J BnLdwlJs DISSM/ss MlorheAs MhR-8-^IT
Judgment Dfm Dismissing STnnLbY J.Bddwins Hith Prejudice Mhr-X-aom
APPENDIX D - APPELA/iT Modoh fbk Leave To AMenJ Oriel naL Motion Faa APPalMMcnt oT JuNStl
Thee Dio nr Ur /-/y hPPoi#t?vi£nt of CoumsM. .
appendix e-Summary

CiviL Docket and Summary DbnM Docket StofFMept of (age*

APPENDIX F-A More definHe StAteMe^t AND Reason For Gracing The PeTiiiqN.

10

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

CAUSEY V. CAIN, feo FM 60/, &0H (S^C/RjooC)
APPmix-C
Houston V. LACK,; i81 U.S. MS70-J08 5. Cl <237H 101 L.tU)JStoOl8&)
Zones V. Bock 5W US.; mJ/cC^ool)
FdHAU
CARBE 1/ LaPPjN in F3J 335,30.1-M ^dkJooi)
SAMPLE V. LAPPS W P Sapp, 3d J&7J<M + N.6 (UMSOoc)
HEED V. FAULKNER BHl EM 960,763 (7*0#713$
LOUELACE y. LEE H7R F.& HHtISOSJ Joo (SthC/R JooS)
CuttER I/. WiiKmsoN SHH US 70%/ASX $. Of Jll'3 &005)
CutTeR V* WtlkiHsoN W FJd 57? Co^Cik.Wo)
MoNim v. Hedgepeth mo F.3d BHi-sso-si
Mfi
oRTtz. vc Downey s&i F.& g&h-zjo Ci^&p.iwD
*
.
NAVAJO NATION !/. US.'FORESTSERVICE 535 F3d fQ5&-f07Q H^dRScm)

Bear v. Mix V7 FJd wi-ws^UR/m)
.
WiUIAms Y. warden, Federal corr inst. Lm F. Supp. i133-7137 & Conk ivv
TacF&n-bey V. Hams Lai/her as FJd iovuioso - %> CjICIr. 1997) -*appendix-F
STATUTES AND RULES

fio EXCESS To LAW LIBRARY CAUSE OF Lock DownJ

OTHER

//

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

—__to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[/f is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

/a

JURISDICTION
[ ] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
Dm - /7~ Z&2Q
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

13

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Ho EXCESS To LAW U'BQAM To LOOK AT CONSTITUTIONAL AND
statutory Provisions.

N

STATEMENT OE The CMF mtt'is

APPENDIX

E

STATEMENT OF THE CASE

Paragraph ^ 1- Congress

and the legislature placed a legal duty

AND OBLIGATION ON Prison MANGERS AND SUPERVISOR To Remove
Substantial Burdens on the exercise of^RLUIPa) HD
*Sooocc, i-7 &ooo) 6v enacting The Religious LAND USE AND
TftSf / tut ion All ZED PERSONS ACT, RLUIPA HD UG.CM &ooocc, hi

(3,000); And The Texas

religious freedom

Restoration Act(TRFRA)

Title S,** f/o-ooi- U0.00&, Civil Practices
(August do, m?); and the legislature placed

and

Remedies Code

an additional

SfATufoRY Dufr AND OBLlGAf/oN UPoH TEXAS PRISON OFFICIALS,
Under THLe Lh * HH3,oo6M)<b), inmate welfare Section, "of Tie
Texas Government Code, To bnForce all of the Laws of The
LfNitED Shifts AND TEXAS, AND THE DEPARTMENT AND DIVISION) PoitCfES

And Regulations Governing The Da fly Management And operaTJon
of The Prisons. (See ATTacUed Pa&es for, a With mi STaLemenT of claims)
fyPUD Pages - *33

v I15 la -

sm

APPmDix *1

Pm*js

Case l:15-cv-00177-BL Document 1 Filed 09/21/15
■ ?■

*

Page 8 of 16 PagelD 8

*

V. STATEMENT OF CLAIM CONTINUED FROM PAGE 4# PARAGRAPH #1:
Paragraph #2: The Texas Legislature# created the Texas Criminal Justice Board#
under the Government Code# to discharge the State's duty to manage and operate
its prison system within the limits and restrictions of the Constitutions#
and the statutory provisions enacted by the Legislature# and the Congress.
The Governor# of the State of Texas# at his pleasure# appointed Oliver Bell#
Chairman# of the TCJB, and the TCJB# is authorized by the Legislature to
employ Brad Livingston# as the Executive Director# of the TDCJ# and he has
selected Brian Collier# to be his Deputy Executive Director# of the department.
The Legislature# authorized Director Livingston# to delegate his legal duty
and obligation# under Title 4# § 493.006(a)-(b)# of the Government Code#
to Brian Collier# or William Stephens# Executive Director# of the TDCJ-CID.
The RLUIPA# and the TRFRA# and TDCJ A.D. 07.30# are exactly the laws and
TDCJ policies these defendants# and all Texas prison officials are commanded
to comply with# and to obey. Texas prison executives have a legal duty and a
legal obligations# to train and control their subordinates# and the agency's
employees across the State. The above named Texas defendants# have not met
or satisfied their legal duties and obligations, and as a direct result of
their failufces and omissions# after multiple notices that the RLUIPA and
TRFRA were being violated# and TDCJ A.D. 07.30# governing religious access
and accomodations were being violated# Plaintiff has been subjected.to many
forms of racial and religious discrimination# and administrative disparity
that has substantially burdened Plaintiff's Christian ministry# while in
the custody of the State of Texas# and its prison employees.
Paragraph 13: Plaintiff has been assigned to do his time# in TDCJ-CID Region
VI# where Eric Guerrero and Timothy Hunter# and Wallace Nelson# are or were
employed to manage and supervise the French M. Robertson Unit# including the
enforcement of all the laws governing the daily operation of the prison unit#
to comply with the RLUIPA# and the TRFRA# and TDCJ A.D. 07.30. Defendants
Eric Guerrero# Wallace Nelson# and Timothy Hunter# were repeatedly notified
in writing# and Defendant Hunter was notified face to face# sitting inside
of Defendant Keith F. Meeks's office# at the Robertson Unit# that Plaintiff
was being subjected to racial and religious discrimination# and administrative
disparity# and that his Christian ministry# was being subjected to substantial
burdens by the new unit practice promulgated January 3# 2014# in response
to Plaintiff's successful use of the TDCJ Inmate Grievance process# gaining
authorization from Huntsville# to minister on Sunday mornings inside of the
Robertson Unit's chapel# where the piano is kept.
Paragraph #4: January 3# 2014# defendant Archie D. Scarborough# was fired
and terminated as a paid employee of the TDCJ-CID# but was allowed to remain
as a member of the chaplaincy administration in the capacity as a "volunteer
chaplain#" and to keep his same office# and supervise Christian worship in
the Robertson Unit's chapel. In his capacity as a volunteer chaplain# at the
Robertson Unit# Defendant Scarborough# enlisted the assistance and aid of both
paid chaplains# and other volunteer chaplains# and convict enforcers and convict
supervisors# to subject Plaintiff to White supremacy and racial and religious
discrimination# and disparity# and through the assistance of defendants Keith
F. Meeks# and Stanley J. Baldwin# did enlist and obtain the assistance and aid
of defendants Ronald C. Fox# and Adam W. Gonzales# and Clayton Wheeden# to
circumvent and eliminate the authorization Plaintiff was given by defendant
Bill Pierce and former warden Edward Wheeler# on January 3# 2014# to use the
piano to minister with# on Sunday mornings during 4-Building congregatioanl
Christian services. Plaintiff has been repeatedly subjected to this misconduct
since January 3# 2014# by the above defendants.

Case l:15-cv-00177-BL Document 1 Filed 09/21/15
'

Page 9 of 16 PagelD 9

y. STATEMENT OF CLAIM CONTINUED FROM PAGE 4, PARAGRAPH <5#
Paragraph #5: As a direct result of Plaintiff's authorization after the Step 2
grievance Nos- 2013195078/ and 2013187385/ defendants Archie
Scarborough/ Stanley J. Baldwin/ and Keith F. Meeks, created
a new inmate label called volunteer inmate musicians/ and created
a new rotation during the Sunday morning congregational worship
services specifically targeting Plaintiff/ for discriminatory
and disparity applications of the new rotation/ to substantially
burden Plaintiff's music ministry/ that never existed until
January 3/ 2014/ when Plaintiff won a favorable decision from
Bill Pierce/ and Edward Wheeler.
Paragraph #6: Ronald C. Fox, and Adam W. Gonzales, approved and agreed with
the improper misconduct of the chaplaincy, and adopted the new label and
rotation, to advance and promote, the administravie civil conspiracy by the
chaplaincy, after Plaintiff notified them he was substantially burdened by
the conspiracy, and after Plaintiff notified both wardens that he was being
subjected to blatant and flagrant racial and religious discrimination. Both of
the wardens failed to take the remedial action necessary, to remove the RLUIPA
and TRFRA burdens, and enforce the A.D. 07.30 provisions of the TDCJ-CID, but
instead turned a blind eye, and deaf ear to Plaintiff's notices and complaints,
extending the time that Plaintiff was subjected to racial discrimination, and
adninistrative disparity, and denied the opportunity to minister with music.
Paragraph #7: Oiaplain Richard Burgess and James Finley, are Kairos Organization
members, and volunteer chaplains* Defendants Eric Guerrero, Timothy Hunter,
Robert Eason, William Stephens, Brad Livingston, Brian Collier, Bill Pierce,
Vance Drum, Ronald Fox, Adam Gonzales, Stanley Baldwin, Keith Meeks, Clayton
Wheeden, Archie Scarborough, TDCJ-CID, and the TCJB, have entered into an
unconstitutional contract to establish an official government sponsored form
of religion, inside of the TDCJ-CID Region VI, French M. Robertson Unit,
with the Texas Kairos Organization, in exchange for special accomodations
_____ to prison inmates, at Kairos Walks, and Kairos monthly meetings,
and access
and Kairos weekly classes, and bible studies. TDCJ-CID allows Kairos members
special access and accomodations, to promote the Kairos doctrines, and the
Kairos form of Christianity. TDCJ-CID employees provide agency locations
and schedules exclusive Kairos activities and classes that no other religious
faith or denomination is allowed to have, including special foods and music
festivals, and viewing movies, and other Kairos functions. Inmate members
of the Kairos Organization, are authorized to be decision makers and exercise
proscribed authority over other prisoners. Kairos supervisors are allowed
to attend the Kairos Walks, two times a year, and be served four days of
special catered foods, that other inmates cannot obtain. Kairos band members
are allowed to practice for their concert performances at the monthly meetings
every second Saturday of the month yearly. Kairos band members are provided
preferential housing assignments in the unit dorms immediately upon being
promoted to G-2 custody level, in order to practice music for the monthly
meetings in the gym. Plaintiff is not allowed to practice playing the piano,
and is not allowed to minister on Sunday mornings, or any other time. The
Kairos Organization provides TDCJ-CID with volunteer chaplains as supervisors,
in exchange for being the agency sponsored government approved religion. The
Kairos Organization White piano player Nathan Patterson, is allowed to play
the piano at the Kairos concerts, and the White piano player Nathan Gennings,
under Chaplain Meeks, is allowed to play the piano during Sunday services, but
Plaintiff is not allowed to minister with music period.

It

£V

l *
*f

Case l:15-cv-00177-BL Document 1 Filed 09/21/15

Page 10 of 16 PagelD 10

V. STATEMENT OF CLAIM CONTINUED FROM PAGE 4, PARAGRAPH #7:
‘ Paragraph #8: August 01/ 2014/ Plaintiff requested accomodation to practice his
form of Christianity and conplained directly in writing to Ronald C. Fox/ about
the intended move to close the chapel and thereby deny Plaintiff access to the
piano and the ability to minister. July 19/ 2015/ Ronald C. Fox/ closed the
chapel for Christian worship services and relocated Christian worship services
back to the multi-purpose rooms and the gym.
Paragraph #9: December 03/ 2014/ Plaintiff requested accomodation to minister
in writing from Defendant Stanley J. Baldwin/ on a TDCJ-CID recognized holy day
for Christians during the Christmas celebration of the birth of Christ- The
written request was ignored and denied by Stanley J. Baldwin and Keith Meeks.
Paragraph 10i December 12/ 2014/ Plaintiff complained directly to Keith F. Meeks
about the racial and religious discrimination and disparity he was targeted for/
and served written notice that Keith Meeks/ Stanley Baldwin/ and Adam Gonzales
would be named as defendants in this suit/ because of the misconduct.
Paragraph #11: February 17/ 2015/ Plaintiff submitted 1-60 Inmate Request Forms
to Ronald C. Fox and Stahley Baldwin/ asking for accomodations to minister with
music and notifying Ronald Fox/ that he was substantially burdened by the unit
chaplaincy in the exercise of his Christian faith. No action was taken to stop
the substantial burdens or the racial and religious discrimination Plaintiff
was subjected to by the all White chaplaincy/ and convict supervisors who were
and are also White.
Paragraph #12:February 23/ 2015/ Plaintiff submitted an 1-60 Inmate Request Form
to Adam W. Gonzales/ notifying him that Keith F. Meeks was subjecting Plaintiff
to substantial burdens on his music ministry/ and to blatant and flagrant racial
and religious discrimination and disparity. No remedial action was taken to remove
the substantial burdens, and no remedial action was taken to stop the racial and
religious discrimination and disparity targeting Plaintiff.
Paragraph #13:February 26/ 2015/ Plaintiff submitted 1-60 Inmate Request Forms
to Ronald C. Fox, and Adam W. Gonzales, notifying them in writing that his music
ministry had been totally suppressed by Keith F. Meeks, and asking them to take
the remedial action necessary to intervene and stop the racial and religious
discrimination and disparity Plaintiff was being subjected to, and to remove the
substantial burdens on Plaintiff's ministry. Ronald C. Fox and Adam Gonzales and.
Keith Meeks ignored Plaintiff's complaint and notice, and no action was taken.
Paragraph #14:March 24, 2015, Plaintiff notified Timothy Hunter, in writing that
he was being subjected to substantial burdens on his Christian ministery by Keith
Meeks, and Stanley Baldwin, and notified Timothy Hunter, that both chaplains had
improperly responded to the authorization Plaintiff received from Huntsville on
the two Step 2 grievance responses signed by Bill Pierce, January 3, 2014. No
remedial action was taken by Timothy Hunter, to remove the substantial burdens
on Plaintiff, and no action was taken to stop and end the racial and religious
discrimination and administrative disparity Plaintiff was being subjected too.
Paragraph #15:March 25, 2015, Plaintiff notified Ronald C. Fox, that his all
White chaplaincy and their White convict enforcers and supervisors, were
subjecting him to substantial burdens, and subjecting him to racial and religious
discrimination and disparity and that Plaintiff was filing this lawsuit. No
remedial action was taken, and plaintiff continued to be subjected to blatant
and flagrant targeted racial and religious discrimination and disparity. Ronald
Fox, Keith Meeks, Archie Scarborough, Stanley Baldwin, Timothy Hunter, William
Frank Brown, Matthew Anderson, Nathan Patterson, Nathan Gennings, Richard
Burgess, James Finley, Clayton Wheeden, Robert Eason, William Stephens, Brad
Livingston, and Wallace Nelson, are one hundred percent White people.

<35

A

Case l:15-cv-00177-BL Document 1 Filed 09/21/15" Page 11 of 16 PagelD 11
V. STATEMENT OF CLAIM CONTINUED FROM PAGE 4, PARAGRAPH #15?
Paragraph #16:March 17# 2015/ Plaintiff submitted 1-60 Inmate Requests Forms
to Ronald C. Fox and Adam Gonzales/ asking for a location/ and accomodation to
minister during a TDCJ-CID recognized holy day/ for the Passover celebration/
at Easter/ on April 5/ 2015/ and both prison officials ignored Plaintiff's
1-60 request/ and refused to remove the substantial burden chi Plaintiff/ or to
intervene and stop the blatant and flagrant racial and religious disparity and
discrimination Plaintiff was subjected to by Keith F. Meeks/ and his White
convict enforcers and supervisors.
Paragraph #17: Timothy Hunter/ Wallace Nelson/ and Eric Guerrero refused to .
intervene and remove the substantial burdens on Plaintiff's ministry after they
received formal written notices and complaints about the misconduct of their
subordinates assigned to Region VI/ under their direct supervision/ but they
chose to practice ostrism/ and bury their Beads in the sand/ and turn a blind
eye/ and a deaf ear/ to the notices and complaints Plaintiff provided. As a
direct result of the failure to act/ and to intervene and take the remedial
action necessary to discharge the duty owed by TDCJ-CID/ the TCJB/ Brad
Livingston/ Brian Collier/ William Stephens/ Robert Eason/ they signed off on/
and promoted the unit conspiracy to circumvent the January 3/ 2014/ Step 2
written authorization for Plaintiff to minister with music in the chapel on
the piano. July 19/ 2015/ as a direct result of the failure to act/ and take
the remedial action necessary to stop their subordinates Ronald Fox/ Adam W.
Gonzales/ Keith Meeks/ Archie Scarborough/ and Stanley Baldwin/ and the all
White convict enforcers including William Frank Brown/ Matthew Anderson/ and
Nathan Gennings/ to futher advance the conspiracy Ronald Fox/ in his official
capacity closed the chapel/ and relocated the Sunday Christian services back
to a gym/ and relocated Christian classes back to the multi-purpose rooms/ and
repealed the policy Robert Jay Eason/ promulgated to segregate rival gang members
by buildings in the name of security to accomplish the closing of the chapel.
Paragraph 18:After the successful January 3/ 2014/ Step 2 grievance answer was
secured authorizing Plaintiff to play the piano on Sunday mornings in the chapel/
Matthew Anderson/ appointed by Keith Meeks/ on September 3/ 2018/ was appointed
to replace William Frank Brown/ and on September 1, 2018/ during the Sunday
morning Christian service Clayton Wheeden and William Frank Brown/ ushered him
before the congregation instead of having a church service. Subsequently to the
ceremony Matthew Anderson/ admitted he was an active homosexual/ and that him
and William Frank Brown/ had planned on him taking over as the chaplain's
facilitator since early 2014. Subsequent to his replacement of William Frank
Brown/ as Keith Meeks's convict enforcer and supervisor/ Matthew Anderson has
been removed and disciplined by TDCJ-CID officials. After the removal of the
Matthew Anderson/ William Frank Brown selected Nathan Gennings to replace
Matthew Anderson/ and Keith Meeks rubber stamped William Frank Brown's choice
making Nathan Gennings his new convict enforcer and supervisor. All three of
these convict enforcers are White. Matthew Anderson and William Frank Brown/
has personally and individually subjected Plaintiff to substantial burdens on
his Christian ministry/ and to racial and religious discrimination and disparity
with the full knowledge of Keith meeks/ Stanley J. Baldwin/ and Archie D.
Scarborough/ and Adam W. Gonzales.
Paragraph #19: Title 4/ § 501.001/ Texas Government Code/ proscribes the use
of convict enforcers and convict supervisors over other inmates in the TDCJ-CID.
TDCJ Disciplinary Procedures Code 46(b)(c)/ makes it a rule violation for any
inmate to exercise authority over another inmate.
Paragraph #20: TDCJ-CID A.D. 07.30/ requires a chaplain/ or volunteer chaplain
supervisor during religious services and activities. Keith Meeks ignored this
requirement and inserted William Frank firown and Matthew Anderson as the only
*
superviso in the chapel services but for the twenty minutes he appeared.

Pflde-

•m.

A MORF DF.Fi N itf STATEMENT PneeV

APPENDIX

F

%
V ' ' Case l:15-cv-00177-BL
J

.1..

i

Document 22

207

Fiied 09/14/16

CLERK US DISTRICT COURT
NORTHERN DIST. OF TX

A**

IN THE UNITED STATES DISTRICT COURT FILED
POR THE NORTHERN DISTRICT OP TEXAS

-

ABILENE DIVISION
MITCHELL ft. VAGNER*
Plaintiff Pro Se,
-VS-

)
)
)
)
)
)
)
)
)
)

TEXAS DEPARTMENT OP CRIMINAL JUSTICE* )
ET. AL.*
)
J

Defendants.

2016 SEP 14 PM J: 35

DEPUTY CLERK.

CIVIL ACTION NO.
1;15~CV-177-BL
HONORABLE E. SCOTT FROST*
U.S. MAGISTRATE JUDGE PRESIDING

)
)
)

IH'20
PLAINTIPP MITCHELL V. WAGNER'S PRO SE COURT ORDERED MORE DEFINITE
STATEMENT IN ADDITION TO HIS PRO SB RULE 8(a) CIVIL COMPLAINT
Plaintiff Mitchell V. Vagner* in compliance with the Court's
August 5* 2016* order submits his pro se "More Definite Statement"
and heightened pleading required by the U.S. Magistrate Judge*
with his answers to the questionnaire to be filed by the clerk.
i

;!j

QUESTIONNAIRE NO. 1
(A) State exactly what "authorization* you were given by Bill Pierce and
former Warden Edward Wheeler* and state the exact terns of that authorization*>
whether it was recorded in writing* and if so* provide a copy.
ANSWER (A)
January 3* 2014* in response to TDCJ Administrative Step 1 and Step 2
grievances nugfcerg 2013187385 A 2013195078, Bill Pierce, Deputy Director
of. TDCJ Chaplaincy Programs* *iii writing'* notified Plaintiff
that Warden Edvard Wheeler* 'granted permission for "[Plaintiff]"
to start playing the piano at regular Sunday morning chapel
services held for 4-Building* A-side of the prison. Deputy Director
Pierce further advised Plaintiff* that Defendant Stanley _J.
Baldwin* in his official capacity as a paid chaplain* had been
advised' of the decision by Warden Wheeler. Finally* Deputy
Director Pierce* concluded that 'no further action was warranted
to resolve Plaintiff's complaints in the grievances.'
No other Christian inmate from 3 or 4 Building* that attended
Christian worship services in the chapel located in 1-Building*
was ^authorized with Plaintiff to begin playing the piano iti
the "chapel services. Under the policy in effect at the time
permission was granted by Warden Wheeler* for Plaintiff to play

A

r

_ i

.• ' Case l:15-cv-00177-BL Document 22 Filed 09/14/16
->• questionnaire no, 1# (a) continued#

Page 2 of 22 PagelD 208

* the piano on Sunday mornings# Christians from 3-Building was
scheduled to assemble in the chapel one week# and Christians
from 4-Building# where Plaintiff was housed assembled for worship
the following Sunday morning for worship. The twwo congregations
were separated and not allowed to assemble together January
3# 2014# until Defendant Keith P. Meeks# persuaded the wardens
to abandon the existing unit policy# and allow the two bodies
to assemble together in the chapel.
Once permission and authorization had been given exclusively
to Plaintiff# the result of the Step 2 responses meant that
Plaintiff would be able to exercise his Christian faith as a
minister of music# every other Sunday morning# without having
to clear it with convict enforcer and facilitator William Prank
Brown# or vith volunteer chaplain Defendant Archie Scarborough.
Defendant Stanley JT Baldwin# the only paid chaplain at the
prison after January 3# 2014# when Defendant Scarborough was
fired# chose to take Sunday off from work.
QUESTIONNAIRE NO. 1
(fi) State particular facts to support your allegation that you were subjected
to ftiite Supremacy and racial discrimination.
ANSWER (B)
William Prank Brown# and Nathaniel Gennings# two White convictenforcers
and Defendants Archie Scarborough/ Stanley J. Baldwin# Keith P. Meeks# Ronald
C. Fox# Richard Burgess# James Pinley# and convict Nathan Patterson# are
all White# and play major roles in who does and does not get access to the
available slots to participate in congregational worship services. Plaintiff
who is not a Church of Christ member# and whose style is different then the
men listed above#
has met repeated opposition to his efforts to minister
as an African-American# instead of a White Protestant Church of Christ. While
Plaintiff has not been allowed to play music# and sing songs to serve God#
by evangelizing and paying his tithe to the Lord# and has not been allowed
to lift up the congregation and lead worship and praise# the White men starting
vith William Prank Brown/ and followed by Nathaniel Gennings# is allowed
to exercise their form of Christianity and given frequent and lengthy time
slots to preach to the congregations. Additionally# Nathan Patterson# a member
of the Texas Kairos Organization# and assigned to the B-side dorms# is allowed
to play the new electric piano weekly in the dorm services# and every second
Saturday in 4-Gym# Nathan Patterson, is allowed to perform in a 2-3 hour
Kairos concert playing the electric piano.
Plaintiff has repeatedly requested a date# and location# seperate from
the Sunday chapel service# in 1-Building# to minister with music# and to
evangelize# and pay his tithes to Holy God# and the defendants hav€t denied
every request for accomodation Plaintiff has made# while continuing to allow
White inmates access# and accomodation# that African-Americans cannot get.
QUESTIONNAIRE NO. 1
(C) Other than not being able to play the piano on January 3# 2014# state
what other restrictions or effects were placed on your practice of your
WAGNER: MBS: RAGE 2

A

>

’' Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 3 of 22 PagelD 209

-:

QUESTIONNAIRE MO. 1, (C) CONTINUED,
religious beliefs on January 3* 2014.

ANSWER (c)
January 3# 2014, is the date that Plaintiff was authorized to play the
piano inside the chapel on Sunday mornings for the purpose of Ministering
with msic, to saints and sinners alike, in order to pay Plaintiff*s tithes
to Holy Odd, by using the spiritual gift Plaintiff has been given from the
Holy Spirit, to call sinners to repentance, and back slidden saints back
to Christ, and to evangelize anid make new converts to Christianity, and to
Make an offering to God, with the praise and worship from Music arid song.
Because Plaintiff is an African-American; and his style of worship suits
African-American Christians, including clipping hands, and shouting loudly,
and dancing in the aisles of the chapel, White stiff Church of Christ, and
other Protestant denominations find Black folks style offensive. By the
oppressive misconduct taken against Plaintiff 'after' Harden tfceeler granted
him permission to play the piano every other Sunday in the chapel, and by
the actions taken to keep Plaintiff off the piano 'after* Deputy Directum:
Pierce authorized Plaintiff to play the piano, and notified Defendant Baldwin
of the decision, Plaintiff was prevented from creating the joy and fellowship
he would have received and given to other African-American Christians, and
to all races of Christians, and prevented from evangelizing with his gift,
and prevented from making an offering of praise and worship with music to
the lord, and prevented from using music to call sinners to repentance, and
saints back into the church for Jesus.
QUESTIONNAIRE NO. 2
(A) State exactly what this new volunteer inmate musician rotation program
was, and how often you were scheduled to play piano under this new "rotation
program."
ANSWER (A)
under the new rotation created after Plaintiff was authorized to play
the piano every other Sunday during the 4-Building chapel service, White
convict enforcer William Frank Brown, and Defendants Keithh (leeks and Archie
Scarborough, and Stanley J. Baldwin, activiely sought out White piano players,
Christian musicians who played piano who had not previously coeplained that
the exercise of their faith was burdened because they could not play music.
As a direct result of the movement to keep Plaintiff away from, and off of
the piano, the availability of ministering for Plaintiff was changed from
every other Sunday, to a minimum of every six weeks if that, and Plaintiff
was not allowed tb minister, but oily play the piano and occasionally sing
a song with the congregation. The rotation went so far, as to add a Sunday
that was "classified as accupalo" where no music was allowed specifically
to keep Plaintiff from ministering with music.
QUESTIONNAIRE NO. 2
(B) Under this new program, were you allowed to play piano at the same
frequency and rotation as other persons that played the piano for religious
services.
WAGNER:MDS: PAGE 3

’ ■ Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 4 of 22 PagelD 210

‘ QUESTIONNAIRE NO. 2* (B) CONTINUED/

ANSWER (B)
No other person in the 4-Building Protestant Christian service held
every other Sunday* in the chapel# was authorized to play the piano at any
tine for any reason# before Warden Wheeler granted Plaintiff permission to
minister with the piano on January 3# 2014# and Deputy Director Pierce advised
the prison paid chaplain Stanley J. Baldwin# of this decision.
(C) State any facts to support the statement that the new rotation program
was "specifically targeting Plaintiff."
ANSWER (C)
Prior to January 3# 2014# there was no attempt and no effort by any
Christian in the 4-Building congregation to add music to the Sunday morning
chapel services. Church of Christ style worship and praise without music#
was the way the service was conducted. No master of the unit chaplaincy#
and no volunteer chaplain# and none of the convict enforcers and convict
supervisors challenged the unit practice# that substantially burdened the
music ministry# or the portion of the Sunday service reserved for praise
and worship with music set out in the scriptures. Plaintiff pressed his
complaints* and submitted his notices repeatedly that "his ministry" was
burdened and that the administrative oppression violated his rights • 9 both
in writing# and verbally face to face with state officials# and in response
to Plaintiff's repeated efforts to cause change and reform* the chaplaincy
and the wardens* and the convict enforcers and supervisors ignored Plaintiff
"[Until]" after January 3* 2014* when Warden Wieeler granted him permission
to minister on the piano* without having to clear it with William Frank Brown# *
Defendant Scarborough and Defendant Meeks's White convict supervisor first.
Immediately* upon Plaintiff being authorized to play the piano# without having
to get through the White gaunlet and structure set up by* and created by
the all White chaplaincy# and the White convict supervisors* the members
set about to devise a plan# to undermine and circumvent the authorization
provided by Deputy Director Pierce* and the permission granted by former
Warden Wheeler. Creating the "new inmate volunteer musician label" and creating
the "new rotation" that never existed previously because there was no music at
the chapel services before January 3* 2014* was the means that the White
chaplaincy# and Church of Christ members* and the White convict supervisors
used to purposefully target Plaintiff for disparity and discrimination, and
still maintain the appearance of neutrality.
(D) State any facts to support the statement that the new rotation program
to
was implemented with a discriminatory and disparate application
substantially burden Plaintiff's music ministry.
• • • t

ANSWER (D)

Plaintiff incorporates Answer C* to the answer for this question* and
adds the following: Plaintiff attended Sunday morning chapel services to
minister with music# and was told directly by convict enforcer William Frank
Brown# "that he could not play the piano because Defendant Meeks told him
not to let Plaintiff play the piano." Additionally* when Plaintiff approached
new convict enforcer Matthew Anderson# and told him that Plaintiff was now
part of the leadership team* convict enforcer Anderson response was "nobody
WAGNER:MDS: PAGE 4

• ■ Case l:15-cv-00177-BL Document 22 Filed 09/14/16 Page5of.22 PagelD 211
-1 QUESTIONNAIRE NO. 2, (D) CONTINUED/
’had said any thing to him about the change in Plaintiff's status." Convict
supervisor Anderson, was hand picked by convict supervisor William Frank
Brown, and Defendant Meeks, to replace convict William Frank Brown, knowing
that convict supervisor Anderson was disqualified because he was and is,
a practicing homosexual, and TDCJ has a zero tolerance policy, regarding
inmate sexual activities.
Additionally, "[after]" Plaintiff secured permission to minister with
music in the Sunday chapel services when 4-Building was scheduled to assemble
inside every other Sunday, Plaintiff was subjected to a "silence code" and
was no longer allowed to sing songs, but instead merely was allowed to play
the piano before a church service started, and as a church service was ending.
If Plaintiff seuig any songs at all while in the 4-Building chapel, it had
to be with the congregation, and not as a minister of music, evangelizing
and calling sinners to repentance.
White convict supervisor William Frank Brown, and White piano player
Nathaniel Gennings, were both allowed to exercise their religious practices
frequently and at length under the headings of exhortations, or preaching,
and witnessing, while Plaintiff was denied any opportunity to minister with
"[music]" and "[song]" to the congregation.
(E) State any facts that show that once this new musician rotation program
was in place, it effected you more than any other person.
ANSWER (E)
Plaintiff has been called by Holy God, to be an undersheperd and minister
of the Lord jfesus Christ, and gifted by God the Holy Spirit, with music and
song to advance the cause of Christ, and His church. As a minister in the
Church of Jesus Christ, Plaintiff has been given the missionary commission
to evangelize the los£ masses of sinners, by calling them to repentance,
and into the family of God, using the spiritual gifts God equiped him with,
to complete his mission. As a direct result of the actions taken by these
convicts and prison officials, Plaintiff is unable to "[serve God]" by vising
his spiritual gifts of music and song, and Plaintiff is unable to pay his
tithe and make his offering back to God, by using the spiritual gifts given
to him, in response to the divine calling that the Lord has issued. The new
rotation including a week where no music can be played during the Sunday
service, and the active recruitment of previously silent Christian musicians
and the 'silence code' Plaintiff was placed under 'after' being granted the
permission and authorization to minister every other Sunday, has basically
circumvented and undermined the access and availability to minister at all.
Plaintiff is "no longer" allowed to attend chapel services at all, and is
assigned to 7-Building, I-wing, and forced to attend Sunday services in a
-dirty and bare multi-purpose room, and has been denied a wooden cross and
has been denied repeatedly the use of an old electric piano during the service
while White piano player Nathan Patterson, is allowed to play a brand new
electric piano each week in the dorm church service each Sunday.
QUESTIONNAIRE NO. 3
(A) State any facts to show that these Defendants were personally aware and
involved in the change in music rotation policy, before you ever brought
it to their attention by your complaints and grievances.
WAGNER:MDS: PAGE 5

Case l:15-cv-00177-BL Document 22 Filed 09/14/16
* !*

Page 6 of 22 PagelD 212

QUESTIONNAIRE NO. 3, (A) CONTINUED.
ANSWER (A)
Prior to the January 3* 2014/ permission and authorization in response
to Plaintiff's TDCJ-CID administrative grievances/ no chaplain was concerned
with whether or not Christian musicians were allowed to praise and worship
Holy God/ during the worship services in the chapel. Defendant Archie D.
Scarborough/ and Defendant Clayton Whidden/ the two volunteers at the prison
on Sunday mornings are members of the Church of Christ/ who do not allow
music during their congregational worship on Sunday mornings. No chaplain
had the authority to include any other Christian inmate/ after the January
3/ 2014/ response to Plaintiff's grievance because of the total bain still
in effect on the use of music during Sunday morning worship services. For
the change to occur/ and the rotation to be bom/ the chaplains "had to have
had the approval of the ranking department and division and unit security
supervisors* to undermine and circumvent the Step 2 answers and response
signed by the Deputy Director of TDCJ chaplaincy/ Hill Pierce.
(*) State any particular facts that support your allegation that the change
in music rotation policy was the result of a "civil conspiracy. “
ANSWER (•)
Immediately upon Plaintiff being authorized and granted permission
to play the piano during the Sunday chapel services *[independent of]* the
White convict enforcers/ and convict supervisors/ who absolutely controled
what Christian inmate would be given access and accomodation to participate
in any portion of the service in the chapel/ leader William Prank Brown
openly opposed Plaintiff's ministry. Shortly thereafter in response to the
opposition from convict enforcer William Prank Brown/ Plaintiff was threatened
by Keith P. Meeks. before he was discovered for falsifying his application
with TDCJ-CID to get the chaplain's position after Defendant Archies D.
Scarborough was fired and terminated. Keith P. Meeks/ went to Adam W. Gonzales,
with the support of Archie D. Scarborough/ and Stanley Baldwin, and was given
authorization to create the "new rotation policy1 that never existed before.
Once the new policy was created Clayton Whidden joined forces with convict
enforcer William Prank Brown, and the chaplaincy, and suppressed the music
ministry Plaintiff was entitled to advance during the chapel service. The
telling blow, and the fruit of the conspiracy ended in Plaintiff being placed
under a chaplaincy "silence code* where all that Plaintiff could do was play
the piano for a few minutes before or after the Sunday morning assembly,
but the convict enforcers and the chaplaincy stopped Plaintiff from singing
any songs individually as a minister. Plaintiff wrote formal letters to the
the defendants charged with the legal duty and obligation, to protect him
from the conspiracy bom from the White resistence to his ministry, and there
has been no change other than the fact that now. Plaintiff "[is not]* even
allowed to touch a piano during any congregational service, and "is not"
provided any location in a gym or other place where he can play the piano,
and serve God by using his spiritual gifts. White Christians are provided
access and accomodation in a gym. and in the chapel, and White Christians
can sing individual songs and play the piano at the same time.
(C) State exactly how long (from what date until what date-or if particular
dates) was the time you allege that you were "subjected to racial discrimination
and denied the opportunity to minister with music."
WAGNER:MDS: PAGE 6

■■

'' Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 7 of 22 PagelD 213

'QUESTIONNAIRE NO. 3/ (C) CONTINUED/
"ANSWER ( C )
January 26# 2014* in writing Plaintiff formally complained directly
to defendant Wallace Nelson# about the racial discrimination he was being
subjected to twenty-three days after he was granted permission and authorization
by Deputy Director Bill Pierce# and Warden Edward Wheeler to minister with
music in the Sunday chapel services. February 7* 2014* defendant Wallace
Nelson# responded and stated that he had contacted defendant Stanley J.
Baldwin# regarding Plaintiff's formal written notice. No change was effected
after the exchange between Plaintiff and defendant Nelson# and the racial
discrimination and the administrative disparity between White musicians at
Sunday services and the Kairos meetings# increased. On February 14* 2014*
Plaintiff filed TDCJ Grievance No. 201409276* specifically citing defendant
Nelson's written response and notice that he had contacted defendant Baldwin.
March 11# 2014* in the chaplaincy defendant Stanley J. Baldwin# and Archie
D. Scarborough* attempted to intimidate Plaintiff. March 16* 2014* convict
enforcer William Frank Brown* informed Plaintiff that volunteer chaplain
and defendant Archie D. Scarborough* had canceled Plaintiff's authorization
and that Plaintiff "{could not]" play the piano during the church service.
One day later* March 17* 2014* defendant Keith F. Meeks, sent Plaintiff an
Inmate Request Form* (1-60) and informed Plaintiff effective March 16# 2014*
his permission and authorization has been canceled. Adam W. Gonzales* defendant
and assistant warden* signed the Step 1 grievance April 1# 2014# for TDCJ
Grievance NO. 2014115830. Plaintiff filed his Step 2 appealJApril 15* 2014*
and May 9* 2014* Deputy Director of Chaplaincy Bill Pierce answered it. And
on April 18* 2014* Plaintiff filed TDCJ Grievance NO. 2014131848* once again
providing formal written notice# that he was being substantially burdened
in the exercise of his Christian ministry. Finally# May 9* 2016* Plaintiff
filed TDCJ Grievance No. 2016143409* complaining about the racial and religious
discrimination and disparity he was subjected to. On July 8# 2016* defendant
Vance Drum* the new Deputy Director of Chaplaincy* answered Plaintiff's last
effort to be free from the administrative oppression and blatant and flagrant
misconduct that began 'after the January 3* 2014# success. Plaintiff is still
substantially burdened from the defendants today.
QUESTIONNAIRE NO. 4
(A) State any facts to support your allegations of the existence of a contract.
ANSWER (A)
Kairos Organization members are the bulk of volunteer chaplains that
supervise "Christian" services and classes and programs and activities. The
TDCJ in exchange for providing nonpaid supervisors at the units* give the
Kairos members 'blue badges' and 'oranger badges’ indicating whether or not
they have to have a security escort* or a paid chaplain escort to move about
the unit from 1-Building# to other Ideations inside of the fence. If a member
of Kairos has the correct color badge* he is free to go any where inside
of the fence* and authorize and issue inmate layins just like a paid member
of the prison chaplaincy does. Kairos is given benefits that nonmembers cannot
get from TDCJ. But for the exchange between Kairos volunteers and the TDCJ* it
would not be possible for outside organizations to secure the locations they
are given to throw a party twice a yecir* or to have the classes in the chapel*
each roonday afternoon* and they would not be automatically transfered to
the dorms upon reaching G-2 status where they oould practice for the Kairos
monthly meetings and concerts. TDCJ would not give up these benefits and
WAGNER:MDS: PAGE 7

' • Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 8 of 22 PagelD 214

QUESTIONNAIRE NO. 4, CONTINUED,
ANSWER (A), CONTINUED
TDCJ would not permit females married to Kairos members to come inside of
the prison on the last day of the Walks in the gym, and TDCJ would not provide
juice and coffee for the Kairos monthly meetings at state expense, and TDCJ
would not allow Richard Burgess, to bring musical instruments into the prison
for the inmate Kairos Band,
that 'no other Christian group' or any other
religious group of inmates are given, but for the implied contract with the
Kairos Organization, that in exchange for all of the benefits that Kairos
provides to TDCJ at no expense to the agency, the agency will grant then
exclusive access and accomodation to present the Kairos doctrines to the
forty two (42) inmates chosen and indoctrinated two times a year, and then
brought to Kairos classes each week at a TDCJ provided location specifically
to strengthen their Kairos ties as a community, and assembled together for a
monthly meeting in the gym, where only Kairos members are allowed to enter.
Finally, Kairos Organization exclusively, is aillowed to spend thousands of
dollars at Christmas, and pass out gift bags to every inmate in the prison.
No other Christian organization or church can come inside of the prison and
obtain access to inmates in this manner. Christian inmates serving a prison
sentence at the prison, "cannot" purchase commissary items from TDCJ and
distrbute them to other prisoners without facing disciplinary charges. But
for the TDCJ sponsorship, and establishment of prefered religious status,
the Kairos Organization is granted, they would not be able to breach security
and continue to be the dominant religious presence at the Robertson Unit.
(B) State any facts, such as dates, times, and the events of any specific
incident in which your right to practice your religion, was burdened or
restricted by any practice or activity of this Kairos organization.
ANSWER (B)

O

Twelve times each year, the Kairos membership assembles in a TDCJ gym
for its monthly meetings, and White Kairos members Clinton Oakley, Joshua
Humhpreys, and Nathan Patterson, with others, are allowed to perform a concert
singing praise and worship and playing guitars and the electric piano. Each
Sunday morning Nathan Patterson and Nathaniel Gennings and William Browne,
can play the piano or preach exercising speech, along with William Frank
Brown, who is also a Kairos member. Plaintiff has never been able to appear
at any Kairos function, and play the piano or minister in any fashion to
the assembly the way other inmates are permitted too. Because of his membership
in the Kairos Organization, and his housing assignment in the dorms, White
Kairos member Nathan Patterson, keeps the electric piano in the gym used
for Sunday mornings services and practices, and prevents Plaintiff from ever
using the electric piano in the Sunday multi-purpose roans where Plaintiff
is forced to attend Sunday services.
(C) In this allegation, you are claiming that you are not allowed to "practice"
playing the piano. If you are instead claiming that you no longer are allowed
to play piano at any time, state exactly the date and state how long you
were not allowed to play piano.
ANSWER (C)
Plaintiff is not, and has not been allowed to 'practice playing piano"
since January 26, 2014, when he was notified that his permission and the
authorization granted to him to play the piano during the Sunday morning
assemblies and congregational worship has been "canceled." Plaintiff has
vagner;mds; page 8

‘' Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 9 of 22 PagelD 215

QUESTIONNAIRE NO. 4, CONTINUED/
ANSWER (C)/ CONTINUED
repeatedly requested access and accomodation in writing to prison officials
charged with the responsibility to permit Plaintiff to practice his form
of Christianity/ and to minister with music and song/ beginning March 3/ 2014/
by an 1-60 Inmate Request Form, sent to Deputy Director of Chaplaincy Bill
Pierce/ which did not result in any change at the prison in Abilene/ and
a subsequent written request to Stanley Baldwin/ cm April 21/ 2014/ which
additionally notified Stanley Baldwin that White convict enforcer Natthwew
Anderson had canceled the order by Stanley Baldwin for April 19/ 2014/ and
again on April 23, 2014/ Plaintiff submitted another 1-60 Inmate Request
Form to Keith F. Meeks, requesting practice time and received no answer/
and was denied practice time/ and Plaintiff made another written request
to Keith F. Meeks May 28/ 2014/ for accomodation on June 15/ 2014, and that
written request was denied, and Plaintiff submitted another written request
to Stanley Baldwin on August 3, 2014, asking for accomodation on August 9,
or August 10, 2014, and that requests was denied, and Plaintiff made another
August 9, 2014, to Stanley Baldwin, which was answered August 12, 2014, but
did not result in any change or accomodation, and Plaintiff made another
written request February 17, 2015/ to Ronald C. Fox asking for access and
accomodation which was ignored/ arid Plaintiff made another written request
February 23/ 2015, to Adam W. Gonzales asking for accomodation and access
which was ignored/ and Plaintiff made another written request to Ronald C.
Fox and Adam W. Gonzales, February 26, 2015, asking for accomodation which
was ignored, and Plaintiff made another written request for accomodation
to Adam W. Gonzales for accomodation April 5, 2015, "Easter Sunday* which
was denied and ignored,
and Plaintiff notified Stanley Baldwin in writing
April 21, 2015, that he went to the chapel service on April 19, 2015, and
White homosexual convict enforcer Matthew Anderson, refused to allow Plairitiff
to minister with music or play one song for the congregation • / and Plaintiff
made another written request September 5, 2015, to Ronald C. Fox, for access
and accomodation which was ignored, and Plaintiff made another written request
to Keith F. Meeks, on September 21, 2015, for specific dates on September
26th-27th, 2015, which was ignored and denied, and Plaintiff continuosly
and repeatedly time after time, has formally requested in writing that these
defendants accomodate his ministry after the January 03, 2014, authorization
and permission was granted, and after the January 26, 2014, cancelation was
done, up until today, and Plaintiff has not been given "[any {practice time]"
period inspite of his volumous written requests, and today in August 2016,
Plaintiff }IS NOT] allowed to touch a piano at all during a Christian worship
service by these prison officials at the Robertson Unit.
(D) With regard to your claim that you are not allowed to minister on Sunday
mornings or any other time, are you stating that you are not allowed to play
piano "on Sunday mornings or any other time." If so, state the date this
took effect, how long it has been in effect, and state the last time you
were allowed to play the piano.
ANSWER (D)
Yes see answer above. Plaintiff is never allowed to touch a piano today.
Plaintiff's ministry is dependent upon singing songs accompanied with piano
music, to express the messages given to him by the Holy Spirit and through
spiritual revelations that he is to share with the congregations through
praise and worship, which is Plaintiff's offering back to God, by using the
gift of music and praise to worship God with the congregation.

;. t a S> itcO' jcA h<

<2

• Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 11 of 22 PagelD 217

QUESTIONNAIRE NO. 5, CONTINUED/
ANSWER (C) CONTINUED/
PLAYED THE PIANO TO MINISTER. Plaintiff repeatedly complained to TDCJ that
he was not just a piano player/ and that he was a minister for God/ and that
he was not an 'inmate volunteer musician' and that the rotation and the current
policy substantially burdened his "[Ministry]* and prevented him from serving
God/ on Sunday mornings or other times. TDCJ officials ignored Plaintiff#
and' Plaintiff remained substantially burdened and under the silence code#'
once it was implemented after January 26, 2014/ until Plaintiff was charged
with the Code 3.3 and 15.0/ and transfered to 8-Building/ and then to 7-Building • •
QUESTIONNAIRE NO. 6
(A) If there are other specific dates that you were not allowed to play
piano/ please state those specific instances/ and any facts related to each
such incident.
ANSWER (A)
See Questionnaire No. 4, (C) above. Plaintiff made specific written
requests to every possible TDCJ enployee that had the duty and obligation
to provide access and accomodation for him to minister to sinners and saints
during TDCJ recognized 'Christian holy days' at Easter April 5# 2015/ on March
17/ 2015/ and Plaintiff requested in writing that TDCJ accomodate his ministry
on January 26/ 2014/ requesting February 9th & 23rd/ 2014/ to minister/
and Plaintiff specifically asked Keith P. Meeks to allow him to “[sing]"
and minister with a song/ while he played the piano October 25/ 2015# and
that written request was denied/ and Plaintiff formally requested 'a location
to minister with song and piano for June 15/ 2014/ and that request for access
and accomodation was denied/ and Plaintiff Specifically asked for access
and accomodation in writing on ‘ August 9, 2014 and August 12# 2014/ that was
denied by Stanley Baldwin. The court should understand/ that these are not
a total list of times that Plaintiff requested accomodation and was denied.
Plaintiff repeatedly made formal written request and verbally requested access
and accomodation to minister with music and song/ and repeatedly was denied#
and Plaintiff., made specific written requests for accomodation and access
March 18# 2016, March 17# 2016, torch 16, 2016# and March 13, 2016, and
each and ; every' formal written requests was denied, on October 25 , 2015,
Plaintiff formally requested accomodation and access for November 7, 2015/
or November 14, 2015, or November 21, 2015, or November 28, 2015, to be able
to minister with music and song at any location, and each requests for any
location and date, and the removal of the silence code, was denied. On September
21, 2015, Plaintiff specifically requested accomodation and access to a location
from Ronald C. Fox and Keith Meeks, before the two of than were removed from
Robertson unit, for September 26th or 27th, 2015, and that request was denied.
September 14, ' 2015, Plaintiff specifically requested in writing that Ronald
Fox accomodate him on September 19th or 20th, 2015, and that request was
denied. On September 5, 2015, Plaintiff formally requested Ronald Fox# would
accomodate him with access and accomodation by providing him a location for
ministry September 12th or 13th, 2015, and that request was denied. The court
should understand that once the silence code was in place, and after the
January 26, 2014, cancelation of Plaintiff's authorization and permission
was revoked by these chaplains and assistant warden Adam Gonzales, Plaintiff
was continuously subjected to burdens on his ministry with music and song.
No amount of effort, succeeded in changing that disparity and discrimination.
WAGNER:MPD PAGE 11

;

• • Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 12 of 22 PagelD 218

t QUESTIONNAIRE NO. 7
(A) Other than not being allowed access to the piano to be able to play
music, have you had any other restrictions or burdens on your right to practice
your Christian religion?
ANSWER (A)
Yes. Plaintiff's ministry includes evangelizing with nusic and songs/
and paying his tithe to God/ and making an offering to God/ and serving God/
by calling sinners and saints to repent and return to God/ and to teach
the gospel of Jesus Christ/ by singing and playing nusic. Plaintiff 'is not'
accepted and approved by the convict enforcer leadership group headed by
William Frank Brown/ Nathaniel Gennings, and Ricky Nunn/ created and empowered
by Archie D. Scarborough and Keith Meeks, and continued by Stanley Baldwin/
and therefore Plaintiff 'was not' afforded any opportunity before being sent
to 7 & 8 Building/ after the charge on March 3/ 2016. Evangelizing/ titheing,
making an offering/ and calling sinners and saints to repentance is a fundamental
basic tenet of the Christian faith.
QUESTIONNAIRE NO. 8
Are the facts made the basis of this suit the same or similar facts
you asserted in your prior civil case Wagner v. Carapuazano/ et. al • # NO.
1:12-Cv-205-CV? How are the facts of the claims you assert in this case
different from the facts you asserted in the prior case?
ANSWER
Yes and No. The TDCJ employees today, are different then the TDCJ
employees that were defendants the first time. Gilbert Campuzano retired,
the
first
and Edward Wheeler retired, and Richard G. Leal, left TDCJ. In
action, Plaintiff was subjected to a total ban period, along with "all other"
Christians, Muslims, Jewa, and other faiths on the use of musical instruments
and choirs during religious services. In the instant case. Plaintiff has
been "purposefully targeted specifically because he is and African-American
Christian individual minister" that the White chaplaincy and the White convict
enforcers and convict supervisors, oppose because Plaintiff's style of ministry
does not conform to the Church of Christ's doctrine not to use musical
instruments for praise and worship. In the first civil suit Plaintiff 'did
not' have formal written authorization and permission to play the piano from
Warden Edward Wheeler, or Deputy Director Bill Pierce. In the instant case
Plaintiff 'had exclusive' written permission and authorization and exemption
to play the piano at "specific times" at a "specific location" during a
"specific date" for a "specific reason." Immediately upon Plaintiff's success
at gaining authorization and permission to minister in the chapel, the ftiite
employees, and the White convict enforcers and supervisors entered into the
agreement and conspiracy, to undermine and circumvent the gain Plaintiff
had made, and did so by creating a rotation and inmate label that never existed
previously, specifically to keep Plaintiff from ministering when he was not
accepted or approved by the White people in control of accomodation and access
for Plaintiff to serve God and minister. Once the convict leader William
FranK Brown, and his assistant Nathiel Gennings, could no longer control
whether Plaintiff was provided access and accomodation to play the piano
and minister with singing during the Sunday morning chapel service, Keith
Meeks and Archie D. Scarborough, and volunteer Clay Whidden intervened and
initiated the process to undermine and circumvent the authority and the
WAGNER: MDS PAGE 12

• Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 13 of 22 PagelD 219

QUESTIONNAIRE NO. 8, CONTINUED,
V ANSWER CONTINUED,
permission granted January 3, 2014, returning full control to the White men
employed by TDCJ, and their unauthorized and improper White convict crew
they had empowered and selected to form a leadership structure to do the
bidding of the White chaplaincy and the Texas Kairos Organization.
QUESTIONNAIRE NO. 9
Are the legal claims asserted in this suit the same as the legal claims
you asserted in the prior civil case Wagner v. Campuzano, et. al., No. 1:12-CV205-C? How are the legal claims you assert in this case different from the
legal claims you asserted in the prior case?
ANSWER
Plaintiff is unable to fully answer this question because he is pro
se without the assistance of counsel, and does not have any previous law
school education, and his one and only federal civil litigation was the case
where this court granted the defendants Rule 12(B) motion, after the Fifth
Circuit reversed this court's order dismissing Plaintiff's suit. In the
instant civil action, Plaintiff's legal claims and factual claims are grounded
in the ongoing White suppression and oppression of Plaintiff's right to be
free of racial disparity and racial discrimination, while practicing his
form of Christianity, and the failure of these TDCJ employees to yield to
the RLUIPA and the TRFRA, enacted and passed by the Congress, and the Texas
Legislature, and upheld by the Supreme Court, of the United States and the
State of Texas, specifically to stop prison officials like these from doing
exactly what they "have done," and continue to do inside the razor wire fence
of the French M. Robertson Unit, in Jones County#
QUESTIONNAIRE NO. 10
State any facts to support your naming of the Texas Department of
Criminal Justice as a seperate defendant.
ANSWER
The Texas Legislature, created the Texas Department of Criminal Justice,
from the old Texas Department of Corrections (TDC), and enacted and created
the "Inmate Welfare Section" of the Texas Government Code, specifically setting
out the statutory provisions governing the daily manaigement and operation
of the Texas prison system. Each employee whether he or she was employed
by the department, or the division, or served at the Governor's pleasure,
or was chosen by the Texas Criminal Justice Board, was compelled to comply
with the provisions of the statutes, the directives of the department, and
any of its policies or other management provisions. See Title 4, Section
493.006(a)-(b), Government Code. Included in the duty and obligation under
the Government Code, Administrative Directive A.D. 07.30, and the Texas
Religious Freedom Restoration Act, and the Religious Land use & Institution
Person's Act, and Title 4, § 501.001, and TDCJ Personnel Directive-22, is
obligatory for the TDCJ to enforce and comply with. The 38,000 employees
from the department, make up the department.
QUESTIONNAIRE NO. 11
State any facts to support your naming the Texas Criminal Justice Board
as a seperate defendant.
WAGNERsMDS PAGE 13

;■

' Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 14 of 22 PagelD 220

QUESTIONNAIRE NO. 11 CONTINUED#
ANSWER
Hie Texas Legislature enacted Title 4# Section 492.001# of the Government
Code# expressly placing control over the Texas Department of Criminal Justice#
with the members of the Texas Criminal Justice Board. Included within the
statutory structure and creation of legislative powers delegated to the Board
is the ability to adopt rules as necessary for its own procedures and for
the operation of the department. See Title 4# Section 492.013(a)# Government
Code and Title 4# Section 493.002(a)(2)# Government Code. Additionally#
Brad Livingston# Executive Director# of the department is the oily person
authorized to receive service on behalf of the board# department# or any
division of the department.
The Correctional Institutional Division# is
under Brad Livingston's authority. See Title 4# Section 492.010# and 493.002
(a)(2)# Government Code.
——
QUESTIONNAIRE NO. 12Q
You name as a defendant the "Texas Kairos Organization." State any facts
that show or relate to whether this entity has its own jural existence and
is itself subject to suit.
ANSWER
The Texas Kairos Organization is independent of the TDCJ-CID# and is
a seperate entity from the government agency. In partnership with the TDCJCID# acting together in agreement# in exchange for special status and special
accomodations and prefered government approval# the Texas Kairos (Organization
through volunteer chaplain and Church of Christ member Richard Burgess# and
paid chaplain and Church of Christ member Archie D. Scarbrough, with convict
Kairos member Clinton Oakley# 'did' engage Richard G. Leal# assistant warden#
and 'did' successfully gain exemption from the total ban on using musical
instruments during the monthly Kairos meetings# that Plaintiff# and no other
religious entity was given based on their preferential status with the TDCJCID. Texas Kairos Organization# provides the majority# if not all# of the
volunteer chaplains that serve as supervisory officials for various prison
activities and programs# that would not be approved otherwise. Members of
Texas Kairos Organization/ who are awarded a "blue badge" by TDCJ-CID are
authorized to go any where inside of the prison# without an escort# and can
issue official passes and issue layins for inmates. As a direct result of
the Texas Kairos Organization's presence at the prison# and as a direct result
of the Texas Kairos Organization's agenda and indoctrination of inmates that
have completed one or more of the Kairos Walks, hell two times
year#
and the attendance in the Kairos classes provided each monday of the week#
the illegal and unauthorized "convict supervisor structures" has developed
copying the Texas Kairos Organization's membership supervisors. The harm
and prejudice Plaintiff has been subjected to by the "convict enforcers"
and "convict supervisors" from 3 & 4 Building# can be traced to the Kairos
Organization's model.
QUESTIONNAIRE NO. 13
You allege that Defendant. Oliver Bell failed to "train Brad Livingston
and William Stephens to train employees." State any particular facts of
Defendant Bell's personal involvement in any of the allegations made the
basis of your coirplaint.
WAGNER:MDS PAGE 14

;

• • Case l:15-cv-00177-BL Document 22 Filed 09/14/16
QUESTIONNAIRE

Page 15 of 22 PagelD 221

NO. 13, CONTINUED,

* ANSWER
August 22, 2015, Plaintiff personally formally notified Oliver Bell,
in writing, that he was being subjected to racial and religious discrimination
and administrative disparity by his subordinates at the prison in Abilene
in violation of state and federal law. Under the Texas Government Code, and
the Texas Religious Freedom Restoration Act, Section 110.006(f), the numerous
and volumbus formal TDCJ grievances Plaintiff filed in addition to the direct
formal written notice to Oliver Bell, that Plaintiff sent him, compelled
Oliver Bell to contact Brad Livingston, and William Stephens, and cause them
to discharge their duty and obligation under Title 4, Section 493.006(a)(b), Government Code, to enforce the laws that protected Plaintiff by training
employees at the units to use the least restrictive means available to reach
any legitimate state interests, when infringing upon Plaintiff's rights to
practice his form of Christianity. Instead Oliver Bell, ignored Plaintiff's
formal written notices directly to him, and ignored the volumous TDCJ grievances
completed under $ 1110.006(f), of the Texas Religious Freedom Restoration
Act, and allowed Brad Livingston, and William Stephens to continue to ignore
the violations being committed by department employees, and to fail to discharge
their duties and obligations placed on them by the Legislature under § 493.006
(a)-(b), of the Government Code. As a direct result of Oliver Bell's failures
to train Brad Livingston and William Stephens, to train the state employees
inside of the French M. Robertson Unit, to comply with and obey the mandatory
requirements under the religious Acts passed by the Congress and the Texas
Legislature, Plaintiff has suffered greatly and been subjected to misconduct
by TDCJ officials who are out of control.
QUESTIONNAIRE NO. 14
You allege the following as each of Defendants Brad Livingston, Executive
Director, TDCJ; Brian Collier, Deputy Executive Director, TDCJ; William
Stephens, Executive Director, TDCJ-CID; Robert Jay Eason, Deputy Executive
Director, TDCJ-CID; "failed to discharge Delegated duties to protect religious
rights."
(A) State any particular facts to support or relate how Brad Livingston was
personally involved in any of the allegations made the basis of your complaint,
or was involved in any violation of your rights.
ANSWER (A)
See answer No. 10. Additionally, Brad Livingston, was a defendant in
Sossamon v. The Lone Star State of Texas, the first Robertson Unit RLUIPA
and TRFRA suits in the courts, and knew or should have known, that prison
officials at the Robertson Unit, "wre not" complying with the laws that were
enacted and passed to protect inmate religious rights. Brad Livingston failed
to take the remedial action necessary either personally to cause a training
program for unit supervisors to understand the RLUIPA or TRFRA requirements,
and failed to exercise his option to delegate the legal duty and legal
obligation placed on him in his official capacity under Title 4, § 493.006
(a)-(b), of the Government Code. As a direct result of Brad Livingston's
failure to discharge his duty, or to delegate his duty to a subordinate no
remedial action ever occurred, and Plaintiff continuously was subjected to
employee misconduct and official oppression by TDCJ officers at the prison.
WAGNER:MDS PAGE 15

■ • Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 16 of 22 PagelD 222

QUESTIONNAIRE NO. 14# CONTINUED/
1 <•

ANSWER (A)/ CONTINUED/

Additionally/
Brad Livingston/ in his official capacity has received
volumous conpleted Step 1 and Step 2 TDCJ administrative grievances exclusively
provided by the Texas legislature under Title 4/ § 501.008(d), to give notice
to employees that the department and the division is noncompliant with the
mandatory duty and obligation placed on every official to yield to the force
of the Texas Religious Freedom Restoration Act/ (TRFRA) under §§ 110.001110.008/ Civil Practices & Remedies Code/ and the Religious Land Use and the
Institutionalized Person’s Act/ (RLUIPA) 42 U.S.C./ $ 2000cc/ 1-7 (2000).
After total exhaustion of the available administrative remedies, including
contacting the TDCJ Ombudsmen's Office/ in Huntsville/ and numerous formal
written notices to
Brad Livingston's subordinates/ Brad Livingston/ in any
capacity failed to
stop the racial and religious discrimination and the
religious disparity
that "did" and continues too/ exist at the prison in
Abilene, Texas. By omission/ and as a direct result of the failure directly
to discharge his Legislative duty/ under Title 4/ § 493.006(a)-(b)/ of the
Government Code/ and after notice Brad Livingston failed to act as he was
required too under the TRFRA in his "official capacity" and remove the
substantial burdens his delegated subordinates placed on Plaintiff.
ANSWERS fB), (C)/ (D).
See Answer (A) above/ and Answer No. 10.
QUESTIONNAIRE NO. 15
Instate any additional particular facts to support or relate how(Ericj
GurreroT) Region VI Director/ "failed to discharge delegated legal duties J

protect religious rights.
(A) ANSWER
TDCJ has a two part administrative grievance system created by the
Texas Legislature/ under the Texas Government Code/ Title 4/ % 501.008/ and
provided that the administrative grievance process is the "exclusive" TDCJ
administrative remedy. Once the Step l grievance has been filed and answered
the Step 2 appeal/ goes to the Regional Director's Office/ and EricGuerro.
Additionally/ Plaintiff made direct contact with Wallace Nelson/ and Timothy
Hunter/ two TDCJ employed chaplains in Gatesville/ who share an office with
Eric Guerrero. Once Plaintiff made direct contact with Eric Guerrero through
the Step 2 appeal process under the administrative grievance process/ based
on the legislative duty placed on TDCJ ranking supervisors and their delegates
under the TRFRA/ and the RLUIPA, to remove substantial burdens, Eric Guerro
had specific "official capacity obligation" to stop the racial and religious
discrimination and administrative disparity Plaintiff was subjected to at
the French M. Robertson Unit/ which is in Region VI, of TDCJ-CID. The Texas
Legislature specifically authorized the court to award Plaintiff up to
$10,000.00 in compensatory damages when a TDCJ employee in their official
capacity,^infringes upon Plaintiff's right to exercise his form of the Christian
faith while in a prison unit. By omission Eric Guerrero did not discharge
his statutory duties to stop the "convict enforcers" and "convict supervisors"
created by Defendants Archie Scarborough, Keith Meeks, Stanley Baldwin,
Clayton Whidden, Richard Burgess, or James Finley, and did not cause none
of. his other subordinates to end the racial and religious discrimination.
Eric Guerrero had a duty under the Texas Government Code, $ 501.001 that
proscribes any TDCJ employee from delegating supervisory authority to the
convict enforcers and convict supervisors who opposed Plaintiff's ministry.
WAGNER:KDS: PAGE 16

• ■ Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 17 of 22 PagelD 223

QUESTIONNAIRE NO. 16
*('A) You allege that Defendants Wallace Nelson and Timothy Hunter# Regional
CHAPLAINS, -failed to discharge delegated legal duties to stop racial and
religious disparity and discrimination, and protect religious beliefs."
(Af With regard to your allegation that Defendant Wallace Nelson refused
to intervene, state what date you sent notice, and state how you are aware
this defendant received notice.
(A) ANSWER
January 26, 2014, 23 days after Plaintiff was granted authorization
by Warden Edward Wheeler, and Deputy Director of Chaplaincy Bill Pierce,
to play the piano in the chapel services when 4-Building Christians assembled,,
Plaintiff in writing formally notified Defendant Wallace Nelson, that he
was being subjected to substantial burdens in the exercise of his faith,
at the French M. Robertson Unit, and specifically advised Defendant Nelson
that the Robertson Unit's "convict enforcers" and "convict supervisors" were
directly responsible for some of the discrimination and disparity he suffered.
February 7, 2014, Defendant Wallace Nelson, wrote Plaintiff another
letter in response to the January 26, 2014, letter from Plaintiff and stated
that he had contacted Defendant Stanley Baldwin, and discussed the notice
Plaintiff provided regarding the racial and religious discrimination and
the administrative disparity.
(B) ANSWER
After Plaintiff provided formal notice pursuant to the TDCJ-CID inmate
grievance process, and after Plaintiff and Defendant Wallace Nelson exchanged
multiple letters, and after Defendant WallaceNrtfelson contacted unit chaplain
Stanley Baldwin, there was no remedial action taken to enforce the law and
Defendant Nelson practiced supervisory ostrism failing to remove the burden
on Plaintiff's ministry. Convict enforcer William Frank Brown, Nathaniel
Gennings, Defendants Keith Meeks, and Archie Scarborough and Clayton Whidden
and Stanley J. Baldwin, were permitted to continue exactly as they did before
Defendant Wallace Nelson received Plaintiff's notice, and responded on February
7, 2014, and they are permitted today, to continue like they have been.
(C) Amnswer
Plaintiff wrote a formal letter on February 26, 2015, to
Defendant Timothy Hunter. In response to the letter notifying
that Plaintiff was being subjected
Defendant Timothy Hunter,
to racial and religious discrimination, and to administrative disparity,
Defendant Timothy Hunter, came to the prison in Abilene, in person, and sat
in an office in 1-Building, with Plaintiff. At the conclusion of the meeting
with Plaintiff, Defendant Timothy Hunter stated that he was going to talk
to Defendant Stanley J. Baldwin, about Plaintiff's notice and complaint.
After Defendant Timothy Hunter left the Robertson Unit, there was no change
and no remedial action taken to end the racial discrimination or stop the
administrative disparity occurring during the Sunday services.
QUESTIONNAIRE NO. 17
(A) You allege that Defendants Vance Drum and Bill Pierce, Deputy Directors
of TDCJ Chaplaincy, "failed to train Region VI Chaplains, and Robertson Unit
Chaplains to Comply with the United States and Texas laws protecting religious
rights and failed to discharge delegated duty to stop racial and religious
WAGNER MDS: PAGE 17

■ ;

•' Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 18 of 22 PagelD 224

.QUESTIONNAIRE NO. 17(A)/ CONTINUED/

disparity and religious discrimination."
,

K

(A) State any facts supporting this "failure to train" allegation against
either Vance Drum or Bill Pierce.

*

ANSWER (A)
In compliance with the RLUIPA and the TRFRA/ and Title 4, § 501.001(d)/
Texas Government Code/ and TDCJ Administrative Directive 07.30/ and the PLRA
42 U.S.C./ $ 1997e (1996), and Chapter 14, Civil Practices and Remedies Code,
Plaintiff provided repeated written and verbal notices that his form of the
Christian faith was being substantially burdened and that he was being subjected
to racial and religious discrimination and administrative disparity by the
TDCJ employed chaplaincy at the French M. Robertson Unit, and their convict
enforcers and supervisors. July 8, 2016, Vance Drum, answered Step 2 Grievance
No. 20161434409, after Jimmy Webb, assistant warden answered the Step 1
grievance on June 10, 2016. Vance Drum nor Jimmy Webb, removed the substantial
burden on Plaintiff's exercise of his form of Christianity, and 'did not*
comply with the RLUIPA and TRFRA's requirement to use the least restrictive
means available to reach any legitimate security interests the TDCJ may have
had infringing upon Plaintiff's right to minister. As a direct result of
the failure by Vance Drum, to train unit chaplains Stanley J. Baldwin and
Keith F. Meeks, regarding the duties owed under the RLUIPA and the TRFRA,
and under Title 4, § 501.001, of the Government Code,, Plaintiff was subjected
to ongoing and continuous blatant and flagrant forms of racial discrimination
and administrative disparity and substantial burdens on the practice of
his Christian ministery.
Again,
on December 1, 2014, after Plaintiff has received a favorable
decision January 3, 2014, from Warden Edward Wheeler, and Deputy Director
Bill Pierce, authorizing Plaintiff to play the piano during the Sunday service
in the chapel, Plaintiff asked unit chaplain Stanley J. Baldwin, on August
3, 2014, in writing by TDCJ 1-60 Inmate Request Form, to remove the burden
on his ministry. Again, Jimmy Webb, assistant warden, on October 30, 2014,
and Defendant Stanley J. Baldwin, refused to comply with the RLUIPA or the
TRFRA, or the TDCJ's Administrative Directive 07.30 governing religious
access and accomodation for religious inmates. December 1, 2014, Vance Drum,
rubber stamped the Step 1 answer by Jimmy Webb, even though Plaintiff specifically
appealed to Eric Guerrero in Gatesville, and to Marvin Dunbar and Bill Pierce
in Huntsville. The racial and religious discrimination and administrative
at the French M. Robertson Unit, because of these ranking TDCJ officials
failure to train Stanley Baldwin and Keith Meeks, to comply with the RLUIPA
and the TRFRA, and limit and restrict their involvement in inmate access
and accomodation to religious locations, and activities to supervising.
On July 13, 2014, Plaintiff formally requested accomodation to practice
- his form of the Christian faith from Defendant Keith Meeks, before TDGI
' removed him from being a chaplain on or about December 29, 2015, after TDCJ
discovered he had falsified his educational qualifications to be a chaplain.
Again, Plaintiff relied upon, and refered to the January 3, 2014, authorization
by Deputy Director Bill Pierce, granting Plaintiff access and accomodation
to minister in the chapel on Sunday mornings, when 4-Building attended services,
and on October 2, 2014, Adam W. Gonzales, assistant warden, answered and did
sign the Step 1 answer and response. October 5, 2014, Plaintiff filed his
Step 2 appeal to complete the exhaustion again, and Octover 24, 2014, once
again Vance Drum, refdsedd to intervene and train unit chaplains to comply
with the RLUIPA & TRFRA, but instead held that no action was warranted.
On May 28,

2014,

Plaintiff made a direct request to Keith F. Meeks,
WagnerjKPD: PAGE 18

;

•• Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 19 of 22 PagelD 225

QUESTIONNAIRE NO. 17/ CONTINUED/ ANSWER (A) CONTINUED/
••'

►after winning a favorable decision from the Fifth Circuit Court of Appeals/
April 15/ 2014/ in Wagner v. Campuzano/ No. 13-11024/ for accomodation to
minister and an accomodation to play piano. Defendant Keith Meeks denied
Plaintiff's request inspite of the Fifth Circuit's reversal and decision/
and inspite of the authorization by former warden Edward Wheeler/ and inspite
of Deputy Director Bill Pierce's signature on two TDCJ grievances dated
January 3/ 2014/ and inspite of the requirements under the RLUIPA and the
TRFRA/ and inspite of the TDCJ's Administrative Directive 07.30. On AUGUST
20/ 2014/ Adam W. Gonzales/ assistant warden signed Plaintiff's Step 1 notice.
In Plaintiff's Step 2 appeal for Grievance No. 2014150239/ Plaintiff did
identify both Keith Meeks and Stanley Baldwin/ in their unit capacity as
having the duty to remove substantial burdens on Plaintiff's exercise of
his Christian ministry. On September 15/ 2014/ Vance Drum/ rubber stamped
the response written by Adam Gonzales/ again/ and did nothing to discharge
the duty owed by the State of Texas/ to train his subordinates to yield to
the force of the United States Congress's RLUIPA, or the Texas Legislature's
TRFRA/ or Texas prison executives' Administrative Directive 07.30.
On March 11/ 2014/ Defendants Keith Meeksf Archie Scarborough/ and Stanley
^Baldwin/ did attempt to use administrative oppression to intimidate Plaintiff
fwith threats and yelling. Plaintiff filed TDCJ Grievance no. 2014115830/
on March 22/ 2014/ and again Adam Gonzales/ their coconspirator answered
|. the the Step 1 grievance on April 1/ 2014/ upholding the misconduct of the
'unit chaplaincy in violation of the RLUIPA and the TRFRA/ and effecting no
change and taking no remedial action to compel compliance with the statutes.
On May 9/ 2014/ Bill Pierce/ in his official caoacity rubber stamped the
Step 2 answer and response after Adam Gonzales protected the chaplains.
ANSWERS (B) (C) (D), QUESTIONAIRE NO. 17
See Answer (A) above applicable to (B)(C)(D)/ No. 17
QUESTIONNAIRE NO. 18
(A) You allege that Defendant Ronald C. Fox/ Senior Warden
and Adam W. Gonzales/ Assistant Warden/ "failed to intervene
and stop racial and religious disparity and discrimination."
(A) State any facts supporting this allegation against eith Ronald Fox
or Adam Gonzales.
ANSWER (A) Once Ronald C. Fox was assigned as senior warden at the
French M« Robertson Unit/
he had to approve any thing that had to'do with
management and supervision of the prison population/ and the enforcement
of the laws/ statutes/ and department and division policies and procedures
"related to" the daily operation of each facility. Chaplain Keith F. Meeks/
often refered to his visits to Ronald Fox and Adam Gonzales/ during the time
congregational worship services/ and at individual one on one meetings.
Plaintiff submitted numerous formal written notices and complaints
directly to Ronald Fox and Adam Gonzales / as part of his compliance with
TDGJ's requirement that inmates attempt informal resolution before filing
Step 1 TDCJ grievances complaining about employees/ and providing notice
that substantial burdens have been placed on inmates religious exercise under
the TRFRA/ §110.001, Civil Practices & Remedies Code- Upon receiving the
formal and informal complaints and notices in writing/ neither Ronald Fox
or Adam Gonzales/ discharged their legal duties under Title 4, § 493.006(a)(B) / delegated by Brad Livingston/ or any other policy or law protecting
Plaintiff from the racial and religious discrimination but instead entered
WAGNER:MDS: PAGE

«•<

.M

•v -

* Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 20 of 22 Page ID 226

QUESTIONNAIRE NO. 18, CONTINUED

‘'•V

Vi •- \

5- --Nk
„
**

•

ANSWER (A), CONTINUED

’iP-

agreement by omission and failure to act, practicing supervisory ostrism
or joining the conspiracy launched by Archie Scarborough, Keith Meeks, and
Stanley Baldwin, to undermine and circumvent the authorization Plaintiff
had received January 3, 2014, before Archie Scarborough got fired and was
terminated as a paid employee of TDCJ, and before TDCJ discovered Keith F.
Meeks, had falsified his application to be a chaplain. Once these two TDCJ
paid chaplains left the agency, Stanley Baldwin, Adam Gonzales, and Ronald
Fox, allowed the exacvt same improper convict supervisor structure and convict
enforcer group to remain in pHower and continue to discriminate against
Plaintiff, and continued to comply with the laws of the United States and
State of Texas governing prisoners accomodation to practice religion.
The January 26, 2014, creation of the rotation and new label for inmate
musicians, to prevent Plaintiff from having access and accomodation to the
piano exclusively as authorized January 3, 2014, "could not" have taken place
without the knowledge of, and the approval of Ronald Fox and or Adam Gonzales.
When Archie Scarborugh and Keith Meeks threatened Plaintiff with disciplinary
action "if" Plaintiff defied their rotation and conspiracy the threats could
not have been carried out without the assistance of Ronald Fox orand Adam
Gonzales in their official capacities.
QUESTIONNAIRE NO. 19 Q
(A) You allege that Defendants Archie Scarborough, Keith Meeks, Stanley
J. Baldwin, Richard Burgess, James Finley, and Clayton Whidden each entered
into civil and administrative conspiracy to target Plaintiff for Racial and
Religious Discrimination."
(A) State particular facts to support or relate how Archie Scarborough
entered into a conspiracy to target you for discrimination.
ANSWER (A)
January 3, 2014, when Plaintiff was granted authorization to play the
piano in the Sunday chapel services, TDCJ fired Archie Scarborough, but he
was allowed to remain as the supervising unit chaplain, in the same office
at the prison, because Stanley J. Baldwin, took Sunday off from work, and
no paid chaplain was available to supervise. Richard Burgess and James Finley
and Clayton Whidden, like Archie Scarborough, were frequently, almost daily
at the prison, and were also volunteer chaplains in Stanley Baldwin's absence.
Between January 3, 2014, until January 26, 2014, when Adam Gonzales joined
this group of volunteers, and Stanley Baldwin, to approve the rotation and
new inmate musician label to accomodate William Frank Brown, Chief Convict
Enforcer and Convict Supervisor, Plaintiff was frree to play the piano without
getting additional authorization from a chaplain or a convict. After the
authorization had been circumvented by these chaplains and assistant warden
Gonzales, Plaintiff was stopped and prevented from playing in the chapel
on Sunday mornings when 4-Building assembled for congregational wrship. When
Clayton Whidden, Richard Burgess, or James Finley, was the supervisng volunter
chaplain at the Sunday service, the convict supervisors and enforcers actually
controlled who had access and accomodation to participate in the service.
Archie Scacrborough before he got fired, created the convict supervisors,
that Keith F. Meeks, and the others embellished that still exist today. Once
the decision was made to circumvent and undermine the authorization Plaintiff
was greanted January 3, 2014, Archie Scacrborough, Clayton Whidden, Keith
F. Meeks, and Stanley J. Baldwin, met before January 26, 2014, specifically
to stop Plaintiff from having the freedom to play the piano, and return full
control of the Sunday worship services to their convict enforcers and convict
WAGNER:MDS: PAGE 20

•Of.

«n

‘ Case l:15-cv-00177-BL Document 22 Filed 09/14/16

Page 21 of 22 PagelD 227

QUESTIONNAIRE NO. 19, CONTINUED

4
<4 fS >

ANSWER (A), CONTINUED
supervisors William Frank Brown, and Nathaniel Genninqs, and Matthew Anderson.
The convict supervisor structure is fashioned after the Kairos membership
and almost all of the prisoner facilitators and supervisors and leaders are
members of the Texas Kairos Organization, and have completed a Kairos Walk,
and attend the monthly Kairos meetings, and the weekly Kairos classes in
the chapel or in the dorms. Archie Scarborough, Richard Burgess, James Finley,
and Clayton Whidden, acting specifically on behalf of Texas Kairos Organization
did, and was able to get TDCJ to authorize special accomodations for the
Kairos activities that no other group could get, including playing musical
instruments and singing. Once Plaintiff was authorized to play the piano
during 4-Building Sunday gatherings, Archie Scarborough, Richard Burgess,
James Finley, and Clayton Whidden provided the supervisory authority that
enabled William Frank Brown, Nathaniel Gennings, and Matthew Anderson to
prevent Plaintiff from playing the piano at a worship service in the chapel.
ANSWER/B) See Answer (A) above.

(Answer (C)
Stanley J. Baldwin, in his oficial capacity as the only paid chaplain
before Keith F. Meeks, replaced Archie D. Scacrborough, after January 3,
2014, failed to take the remedial action necessary to stop the volunteer
chaplains from enabling the convict enforcers and supervisors from carrying
out their plan to stop Plaintiff from ministering with music on Sunday morning
in the chapel, without first gaining their approval. After Plaintiff spoke
directly to Stanley Baldwin, and after Plaintiff in writing notified Stanley*Baldwin, and after Bill Pierce notified Stanley Baldwin of the January 3,
2014, decision authorizing Plaintiff to play the piano in the Sunday chapel _~services for 4-Building Christians, and after regional chaplains from Gatesville
contacted Stanley Baldwin in response to Plaintiff's efforts to get assistance
<-and enforcement of the laws and decisions authorizing him to play piano,
Stanley Baldwin continued to turn a deaf ear, and a blind eye to what the
volunteer chaplains were doing, and how they continued to support and enable
the convict enforcers and supervisors to stop Plaintiff, while White inmates
were allowed too, exercise First Amendment speech preaching.
ANSWRE (D) See answer (C) above

1

for (D) (E) (F)

TITLE 28 U.S.C., § 1746 Declaration
I, Mitchell W. Wagner, swear that I have not intentionally
made any false, or misleading, statements by answering the court's
order for a more definite statement in response to my Rule 8(a)
civil complaint seeking relief under § 1983 or RLUIPA.

DATE

Mitchell W.Wagner

N

WAGNER:MDS: PAGE

21

f2

Reason

for

akhhtrim The
PeIFom

APPEHD'lX

F

/

REASONS FOR GRANTING THE PETITION

Tfje Supreme Court Rule
RuLe. !0.(c)
Tub UNITED STATES Court of RPPeaLS For THE F/Fth CiRCuit
Ms Decided An iMpaetAnt Question oF FeDeraL Iaw
That Has Rot been. But StfouU Be SeULeH /3v This
Court, if- is an important Federal Question And 1e% d
Does CoNFicts With ReL/si/ANf dECisioNS &F TN/s Court
1 Was use/ng a PHsoheR's self Help lifi&AfioN Manual, AW
zn That Manual if sa/J after FtL/m an appeal With A C/RCuit
Court And it Sm HoweI/er The Court of Appeal are AuthoRizEd
To Request CounseL To RePreSenT APPELLANT. The L/ti&AtroH
Manual has Recommended That appellant FiLe a M°fioN
Asking The Court To do So. To Me That Would sit>p The
APPELLANT FtoM ConFus/ng The Court With NONSENSE. So 1
lHe APPELLANT FHeD A Motion For APPoiNtMent oF CounseL WiU\
Declare on in support at and MeMoRancJum oF Law In
Support op APPellanTs Motion For CounseL under APPeUANth
U.S.C.A HEW number l1-il07iS With A PRATER Tuff AGENCY Ms.

Back

when

i Had

my

LfgaL Asst f-ie ms. Twf

one maH

Le&aL EDucaTyon //anDIe/a/s //its Suit T/t June -Jo/q
its WAS SHiPRBD Cfat/ajg Me, ft Pnso Nep Id/i/h A/o
Law school educnT/on. Appendix Pace * 7-Doc JTL »
Ch<2>& i®
#,f MacHMehTs-see APPendlx-fI

REASON FoR GRant/ng The PetH/oM
(bfVtiNllE ffOM

Page # /
APPENDIX- fan *7-Doc, H£ 16 Wha / look OVER HoT KNowiRG
WHfiJ To Do, So /I ORDER Fop Me To Provide DEFENDANTS
APDPesses WAf Like How

was

j Going To ho ThaL ?

Appendix Page*?-Doc.jll Z SeeFT A IbHer To The X ATJbRNEy
Who HbIped

WiU Ml First Suit Wa&nef V- Csmpuzao Ho.

/-IA~Cv-d.oS'C AskiNG Fop HbLp, AND Ask Her FdR. ADDRESSES
To The DeFenDmFs

in

The Aouefc ORDED, SHE CouU'nf AND

WM FFe Had sen! Me i sent d P TIe CouiT Bbmjc
1 PiDM Know Whfff h Do. APPENDIX
i MdfjoH
fop FxttNsioN of Time So TW j Could TTy h -F/WctSome
That Could Fdp Me. A WmkeR in Ve Law Library Tote/
Me AFTER

showing

HYm To ORDER,

append}x- Pa&e*7-Doc.

AX

And Dec.£1° The Judge Never Answered To MiMotions
Doc._&2 am Je3_ Hut id Id9 Hme AfioMEVs

on

Mo

TroM AMBER Meteor) To BerJamIH Phillips AND [TbRE
1,AM A PasoNER. Wtik nc, Law SchooL BDucatioN TA/Ind

T° Fdtt Attorney's For TTe STme of TFxhs.

79$Nncp jo Jtmpwdv vy No!4°N V <^l!d I AI3HJ

pm yv/YM tz 'ooq -(zmcnio 9m
wm/
ftyl 'll ‘*>a '<mw$ m 1Z'000 yjq omoj^
Oj my3] <yc/ T/oz/op/ /// //gyp • m</d{/ do i/ijoy

AH hu/ y/dy.2 Sbieohbl w-Y'd'S'n ?N °1
st//u yagmbf v wdW do sj/j/w/ /h/qj w (73300/1
0_l 3AT/?!/ -10/ l/ol/opj (7?7.i/ ! g/ 'DoQ ’

h/3/2 3W-tf Am/W 1VM ! jmNncr) pp/op/j/ 30 oJ_
?m / j/ /frntvsg pmw /diyvsm/i gyj mj- p/yj
i qn/ 'WddY Avowoonmit- v ±a two Lvocq itfl

-J/-0O(/Z^3^d-XiWWb',imd¥ dQ 3D!pN V Q31tf
/ d/3/2 bJOJJ ‘/A/M/ AM VN/dmSblV Q00) jno 3/pj
PYl -W °1 'WnWN voi/yv/i/ M/y dvs s.vshowj y
%'M dit/HNi £/ ssodOY 3(A2) j dW d<y 3/145/ 'dp/
% /2>f) Kp/) ST <fi!YM J-711 Qt/H !
AINo QW
/?VJ 3/2 3W1 H3/_l J3 7 J?nj> Pi 2m 4H<3[0 I
■ TZ'3°G pMJfddQUri pap j wmdHoS' ?! pilfp/l
N0/pjp9/jr)£ pa pots/ Jo/ jojpntejy iym /did/ AW

y//ssw%iq xw/7 py q pwvQpp ip/py phcg ju w/jy
~z% 39/4 Wo// /nba/NOJ
t/o!±U?J 3(/X dN/p/vjy) vpj 1/03/34

h.9
&

sm mt0 W WV l AWA#>1L¥ 7lU
W3i/jvi jng
AiNWJlV m 4noW'>!1*LL sm wtu ~5F‘3oq oj -ftfood
WOJJ c>S WS'/yV 2i AAVJ]

Hoffofg IH 03HmsN\/

feta w°ns /g'»<7 ing y xiamjv 3js tpv Am mons
J?>poQ 38Q 7VjffaQ /// %10%-Zo-hQ MO hJ3lf£ 2W//,- fJAoyg

gjnog i/jog oS '3HH =3MS m W m°$ MSVI l^S 1
’wd i4$ \fd'sn si f W35 onv 3no gsjy my yam q±
3WO JMJS QW ppmcr) JO

yog vo/p/y y agjy- j

'S£-ahI‘V<M KWh/ 'A wmM W % UGe-tf-fpwb/ *\m/N
Ht 4Nivyw<{)
jm/p ssb! immuian Jivm/w
V <3WJ / JwKW w/w^f-fn <A7W jus 3imJ/ M vunm
'ooti jpVN ! Mxntg 7mncg jo pt3H_j.Hi%jy ya/. a/ojppy ypy
dmof/S- lAVf-f' pinotfg yod-ZO-bO W^d ZW^cl x!^dd¥
'jiSNrKQ 40 WWHJ°dd¥ ycy HoJ4°N AW JdGJjMoMyjoiA
NJA3 4HQ.l(l WV W^Jc/bA 1{/l XJAjmog -j_W 1W°D
$W(M¥ W 4W1 M^d %’M Ao JJjOdjbS w MV} Jq
wnoNvUoHAh/ ‘Adi jo ivojjn? w no/ijv]03(J if/[M
FpjQtg wqjj jnm±Naj

Hoijjjjd wi ONgmg »°i Nosv3(j

Reason Fm Granting 7k PeUTJom
Continue From P/)6E #y
Doc. So. I Fad FLed A MoFom For APPoIhtmm7oF
Counsel With A Wpii of ManSamus Seems£ Agencyz
FAum /o Ad. 1 Did Mis Cause The PrisoNeP's sef
IMP liii&At/oN ManuaL said AGenc/ FaILure. To Aot
VIOLATES fDt CciNstifuf/oft e>R FeDBML STATUTES OR.
Tpat d V/oIaM The AgencY‘s ReGuUfwHS under
THE ADMiNistRf)ti'i/£ ProcedupES AcP APA)

Tam Comes Doc.ILL 1 had FUd A Md/oN For Leave
To AMEND MI ORkimL Mofion FoR APPomfMBht oF
Counsel Wih DtcbefioH am Memorandum of Law under
U.S.C.A Case number H-LIOtg, and DID Md/M For Leave

To Proceed 1FP WAS DENIED, Doc-AL- SO All TPs TIMES
J MotFoNEO For APPoidMmt oF Counsel /a Me WAS
Because The APPerIs Court BLDd lA/Mt To &we Me one.
So i FiLeD FoR A Md/oN To Proceed 1FP AGAIN AND
For APPoldMedoP Counsel Because / Been Done WPouj.

Reason For GRanT/ng The Peir/ioN
CoMTinue From ite ^5
1

HAVE CoNTiNuiy fRYED MoT/ohiMO Foil APPOINTMENT

OF COUNSEL

LIKE IN SEPT-Ao~MM AND THAT WAS A

MofioN For A Ruling oh ORIGINAL Motion For. THE

APPoinTmenT
of

of

Counsel With DeCLarTioh

And Memorandum

US.C.A No. ITJODS8

of lain.

in

Support

Them j Told That

the

WAS CLoseJ So ON OCToBBR-SIG,

AOM JL FiLED Another Motion

For APPoInTNemT of

COUNSEL With DECLARE ION AND MEMORANDUM OP LAW
CAUSE i CouLd Not DeLeave The AGENCY Would
WoLaTe The AG&NCY's

Constitution

or

REGULAfioNs STATUTES OR THE

federal

STaTuTes

or

litE CAPA)

Dio / Do SoMzTh'mG Wrong* Cause / Was Do What The
Prisoner

self

The MaauaL

is

Help Lit/GATioN Manual SAid> But Tow
Cone THEY SHIPPED The OWNER*

REASONS FOR GRANTING THE PETITION

BbCAuse m MARCH JF 2W 1 MAILED Two Motion To Two Courts
ONE To UNifED Strifes DISTRICT Court NORTHERN District of Terns and
one

To UNif ED STMs CouRT Of APPEALS FiFth CkCuit T EDWARD HERBERT

'I Wo Motion For, APfbmtMEHT of CdunseL With DeCAArhon /N SuPPoRT of
AND

Memorandum of la\n In support qe Motion For Counsel .
SENT To

US DC AND

USCA

AT THE SAME TjME. I DlO THIS CAUSE /

Dim Know Now Long / Would Have The Prisoners Self help
LifiSHTioN Manual, see summary DenIaL Docker AND see THE
Summary Cm DockeT- Appendix E.

Reasons For granting the PettIon CoNTa/ue APPbndix F.

1C

t AM SUBSTANTIALLY "BURDEN* IN THE EXERCISE OF MY FORM of
CHRlST/ANify "BECAUSE"I CANHoT MINISTER: MINISTER With MUSIC*
r AM A MlHiSTtR "because" OF INM Gob Gaye METRE Gift of Must.
"BECAUSE'bF THESE CHAPLAINS JAM NEVER ALLOWED To MINISTER AND
AND PAY MY Titht TO GoD With MUSIC AND TMTSUBSTANTIALLY BURDENED ME
Because i Cannot make an offering To God With Music by feeding
CHRIST'S CHURCH To LiFf UP THE CONGREGATION'S SP/Rif WHEN i Gm
PRAISE AND WORSHIP To EXPRESS MY LOVE FOR OUR GoD ACCOMPANIED
With MUSIC FROM THE PiANo: TAM SUBSTANTIALLY BURDENED BECAUSE
I CANNOT EYANGELiza With Musk.CALHnG SINNERS To REPENTANCE USING
Music io express the Gospel of Tbs us Cnr/st: iam substantially
Burdened "Because"iam unable To express The Toy a Sinner Receives
when he Comes Home To The Lord, and is baptized into THe TamiLi
of our Sod. PLease \X/m A More DBFiNifE SMeme/ytQuesUns 0Bhw*
CONCLUSION

I Mitchell Wagner declare under penalty of Perjury that au. facts
Presented In This PeTTiqn with A placements is True and Correct;
Pro se appellant ipyed Tq do what the supreme court Ruies say do.
The petition for a writ of certiorari should be granted. SENT IN ON MflR-Oh SODA

_ More bEFiNita SfofcMENt
Question i<b) page h
quest- No. / (P) Page LA Quest NO. 8 Answer --Page- fQUesT- NON Answer
Quest- No. /a Answer^Po&e-mQuest no. m (a) an) (cypme-so.

Respectfully submitted,
Z/?(fyUA

T

Date:

March 1 - Aoal

\ QuEsT/QNmiRE /
Append lx - F

n

